           Audit Report



 Supplemental Security Income
Recipients Who Had Not Cashed
  Their Checks Within 1 Year




     A-09-13-23023 | April 2014
MEMORANDUM


Date:      April 7, 2014                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Supplemental Security Income Recipients Who Had Not Cashed Their Checks Within 1 Year
           (A-09-13-23023)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration took appropriate action when Supplemental Security
           Income recipients had not cashed their checks within 1 year. Please provide within 60 days a
           corrective action plan that addresses each recommendation.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Supplemental Security Income Recipients Who Had Not
Cashed Their Checks Within 1 Year
A-09-13-23023
April 2014                                                                 Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            SSA needs to ensure it takes appropriate action to reissue payments
Security Administration (SSA) took         to eligible recipients who had not cashed their checks. In addition,
appropriate action when Supplemental       we found that SSA established overpayments for some recipients
Security Income (SSI) recipients had       who had uncashed checks. Based on our random sample, we
not cashed their checks within 1 year.     estimate that SSA

Background                                    did not resolve and reissue $30.7 million in uncashed checks
                                               payable to 43,161 recipients and
The SSI program provides a minimum            should have removed $11.1 million in overpayments for
level of income to financially needy           uncashed checks issued to 21,581 recipients.
individuals who are aged, blind, or
disabled.                                  For the 100 recipients in our sample, we found no evidence that
                                           SSA employees attempted to contact 87 recipients or their
SSI recipients can cash checks issued      representative payees after it received the initial uncashed check
after September 30, 1989 up to 1 year      alerts. In addition, we found that (1) SSA employees improperly
after their issue date. The Department     cleared diaries, (2) the SSI Diary Control program did not track all
of the Treasury (Treasury) will return     recipients with uncashed checks, and (3) SSA employees did not
to SSA any funds from checks that are      take corrective action to remove overpayments when Treasury
not cashed within 1 year in the form of    informed them that recipients had not cashed their checks.
a credit in the 15th month after its
issuance.                                  Our Recommendations
SSA records the receipt of the credit,     We recommend that SSA:
generates an alert to the field office,
and sets a diary. Field office             1. Take corrective action to resolve and, if appropriate, reissue
employees are required to contact the         payments to the 87 recipients we identified.
recipient or representative payee to
determine why they did not cash the        2. Evaluate the results of its corrective action for the 87 recipients
check and take the appropriate action         and determine whether it should develop a cost-effective
needed to resolve the issue (reissue the      method to address the remaining population of 74,316 recipients
check if needed, clear the alert and          with uncashed checks.
diary, and update the SSI record).
                                           3. Determine whether it should revise the SSI Diary Control
                                              program to track recipients who have uncashed checks on
                                              terminated SSI records.

                                           4. Remind employees of the policy to resolve uncashed checks
                                              before they clear pending diaries.

                                           SSA agreed with Recommendations 1, 2, and 3 but disagreed with
                                           Recommendation 4.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA Did Not Resolve Uncashed Checks ...................................................................................3
     SSI Diary Control Program Did Not Track All Uncashed Checks ............................................4
     Overpayments for Uncashed Checks .........................................................................................5
Conclusion .......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................6
OIG Response ..................................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)
ABBREVIATIONS
OIG                 Office of the Inspector General

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSR                 Supplemental Security Record

Treasury            Department of the Treasury




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) took
appropriate action when Supplemental Security Income (SSI) recipients had not cashed their
checks within 1 year.

BACKGROUND
SSA administers the SSI program under Title XVI of the Social Security Act. 1 The SSI program
provides a minimum level of income to financially needy individuals who are aged, blind, or
disabled. 2 SSI recipients who receive checks issued after September 30, 1989 may cash those
checks up to 1 year after their issue date. 3 After 1 year, the checks are non-negotiable, and banks
should no longer accept them. When the Department of the Treasury (Treasury) records show a
recipient has not cashed a check within 1 year of the issue date, it returns the funds, with
identifying information, to SSA in the form of a limited payability credit in the 15th month after
the check’s issue date. 4 If a recipient or representative payee does not cash a check after 1 year,
SSA policy requires that a field office employee contact the recipient or representative payee to
determine why they did not cash the check and, if appropriate, reissue the payment. 5

When SSA receives a limited payability credit from Treasury, it generates an alert for SSA
employees to contact the recipient or their representative payee to determine why they did not
cash a check. In addition, SSA establishes a 60-day diary to remind employees to follow up and
resolve any outstanding checks. After SSA employees have resolved uncashed checks, they
must reissue the payment, if appropriate; clear the diary; and record on the Supplemental
Security Record (SSR) how they resolved the uncashed check. 6

For our review, we identified 74,416 recipients who had uncashed checks totaling $55.7 million.
In addition, SSA’s records showed it had taken no action to reissue these payments to the
recipients. From this population, we selected a random sample of 100 recipients for review
(see Appendix A).




1
    Social Security Act § 1601 et seq, 42 U.S.C. 1381 et seq; see also 20 C.F.R. § 416.101 et seq.
2
    Social Security Act § 1602, 42 U.S.C. 1381a; see also 20 C.F.R. § 416.110.
3
 See SSA, POMS, GN 02401.901.B (October 8, 2009) citing the Competitive Equality Banking Act of 1987, Pub. L.
No. 100-86, August 10, 1987.
4
    SSA, POMS, GN 02401.901.B and C (October 8, 2009).
5
    SSA, POMS, GN 02401.904.B (August 27, 2009).
6
    SSA, POMS, GN 02401.901.D (October 8, 2009) and GN 02401.904 (August 27, 2009).



SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                                1
RESULTS OF REVIEW
SSA needs to ensure it takes appropriate action to reissue payments to eligible recipients who
had not cashed their checks. In addition, we found that SSA had established overpayments for
some recipients who had uncashed checks. Based on our random sample, we estimate that SSA

   did not resolve and reissue $30.7 million in uncashed checks payable to 43,161 recipients and

   should have removed $11.1 million in overpayments for uncashed checks issued to
    21,581 recipients.

We are 90-percent confident the number of recipients with uncashed checks that were payable
ranged from 36,680 to 49,372, and the amount of uncashed checks ranged from $21.3 to
$40.1 million. In addition, we are 90-percent confident the number of recipients for whom SSA
should have removed overpayments for uncashed checks ranged from 16,069 to 27,807, and the
amount of overpayments ranged from $7 to $15.1 million (see Appendix B).

For the 100 recipients in our sample, we found no evidence that SSA employees attempted to
contact 87 recipients or their representative payees after it received the initial uncashed check
alerts. We also found that SSA correctly reissued payments to 3 recipients and determined that
10 recipients were not eligible for the payments. Specifically, for the 87 recipients, we found
that

   SSA employees did not resolve uncashed checks for 25 recipients, of which they improperly
    cleared diaries for 23 recipients;

   the SSI Diary Control program did not track uncashed checks for 33 recipients; and

   SSA employees did not take corrective action to remove overpayments for 29 recipients
    when Treasury informed them that recipients had not cashed their checks.

The following chart summarizes the results of our review of the 100 recipients in our sample.




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                        2
                             Figure 1: Recipients with Uncashed Checks




SSA Did Not Resolve Uncashed Checks
When SSA receives a credit from Treasury for uncashed checks, it generates an alert requiring
that a field office employee contact the recipient or their representative payee to determine why
the check was not cashed and, if appropriate, reissue the check. In addition, SSA establishes a
60-day diary to remind employees to follow up on any uncashed checks not resolved after it
receives the initial alert. 7

We found no evidence that SSA employees attempted to contact 25 recipients or their
representative payees after it received the initial alerts indicating they had not cashed the checks.
In addition, we found that SSA employees improperly cleared the follow-up diaries for 23 of the
25 recipients without resolving the uncashed checks. Since the employees cleared the diaries,
there is no control to ensure the uncashed checks will be resolved. Finally, according to SSA’s
records, all 25 recipients were eligible for these payments. As a result, $15,120 in uncashed
checks was not resolved and, if appropriate, reissued to the 25 recipients.

For example, a recipient who had been receiving SSI since December 1989 did not cash her
January 2007 check for $846. In April 2008, the SSA field office received an initial alert
indicating the recipient had not cashed her check. In addition, SSA established a follow-up diary
for the uncashed check. However, an SSA employee cleared the diary and did not take action on


7
    SSA, POMS, GN 02401.901.D (October 8, 2009) and GN 02401.904 (August 27, 2009).



SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                        3
the uncashed check. Since the employee improperly cleared the diary, the SSI Diary Control
program did not indicate the uncashed check had not been resolved. As of December 2013, the
recipient was in current pay and receiving SSI, but SSA had not reissued her $846 payment.

SSI Diary Control Program Did Not Track All Uncashed Checks
The SSI program requires that recipients’ needs be matched with their financial circumstances
each month to determine eligibility and payment amounts. Changes in individual financial
circumstances require that SSA reassess and verify recipients’ eligibility and payment amounts.
SSA is required to suspend SSI payments for any month in which a recipient does not meet the
eligibility requirements. For example, if a recipient does not provide necessary information to
determine continuing SSI eligibility, SSA suspends payments. In addition, after 12 consecutive
months of suspension, SSA generally terminates eligibility for SSI payments. 8 After SSA has
terminated eligibility, the individual must file a new application to reestablish eligibility for SSI.
When this occurs, SSA will establish a new SSR for the application or period of eligibility.

When SSA employees resolve an alert for an uncashed check, they should reissue the payment, if
appropriate; clear the diary; and record on the SSR how they resolved the uncashed check. 9 SSA
establishes SSI diaries to ensure it currently and accurately maintains recipients’ records. Diaries
indicate that further action by SSA employees is required. SSA’s field offices are responsible for
ensuring that all pending diaries are resolved including diaries for uncashed checks. To ensure
field offices resolve pending diaries, SSA established the SSI Diary Control program, which
should contain a list of all recipients with pending diaries. Recipients will remain in the SSI
Diary Control program until the issue has been resolved and an employee updates the SSR to
clear the diary. However, we found that the SSI Diary Control program excludes recipients who
have uncashed checks on terminated SSRs.

We found that 33 of our 100 sample recipients with pending diaries on their SSRs did not appear
in the SSI Diary Control program because the uncashed checks were on terminated SSRs. In
addition, according to SSA’s records, all 33 recipients were eligible for these payments. Without
the diary control to remind SSA employees that uncashed checks have not been resolved,
uncashed checks totaling $26,136 may never be resolved and, if appropriate, reissued to the
33 recipients.




8
    20 C.F.R. § 416.1335.
9
    SSA, POMS, GN 02401.904.B (August 27, 2009).



SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                             4
Overpayments for Uncashed Checks
SSA establishes overpayments for recipients when they receive an amount for any period that
exceeds the total amount that should have been paid. 10 Generally, SSA establishes
overpayments when it determines recipients are ineligible for SSI and suspends or terminates
payments.

For 29 of the 100 recipients in our sample, SSA employees established $14,895 in overpayments
for uncashed checks because the recipients were ineligible for the payments. At the time, SSA
properly established the overpayments because it was unaware the checks had not been cashed.
However, SSA did not take corrective action to remove the overpayments when Treasury
informed SSA the recipients had not cashed the checks.

For example, SSA determined a recipient was ineligible for a payment in July 2005 and
established a $579 overpayment for that month. SSA subsequently recovered the
$579 overpayment from the recipient’s February through August 2006 payments. In
October 2006, the SSA field office received an uncashed check alert for the July 2005 check.
Although SSA should not reissue the July 2005 check, it should repay the recipient the $579 it
withheld from his February through August 2006 payments.

CONCLUSION
SSA needs to ensure it takes appropriate action to reissue payments to eligible recipients who
had not cashed their checks. Based on our random sample, we estimate that SSA did not resolve
and reissue $30.7 million in uncashed checks payable to 43,161 recipients. We also found that
SSA should have removed $11.1 million in overpayments for uncashed checks issued to
21,581 recipients (see Appendix B).

RECOMMENDATIONS
We recommend that SSA:

1. Take corrective action to resolve and, if appropriate, reissue payments to the 87 recipients we
   identified.

2. Evaluate the results of its corrective action for the 87 recipients and determine whether it
   should develop a cost-effective method to address the remaining population of
   74,316 recipients with uncashed checks.

3. Determine whether it should revise the SSI Diary Control program to track recipients who
   have uncashed checks on terminated SSI records.



10
     SSA, POMS, SI 02201.005 (February 4, 2011).



SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                      5
4. Remind employees of the policy to resolve uncashed checks before they clear pending
   diaries.

AGENCY COMMENTS
SSA agreed with Recommendations 1, 2, and 3 but disagreed with Recommendation 4.

SSA also stated that reviewing cases that are 5- to 14-years-old would require extensive
development and would have little return-on-investment. SSA also stated that uncashed checks
would be a rare occurrence in the future because of the direct deposit requirement. Finally, SSA
stated its policy does not require that its employees document its contact with recipients or
representative payees, and its policy does not instruct employees to manually clear diary alerts.

SSA stated it disagreed with Recommendation 4 because its employees follow SSA policy to
resolve uncashed checks. SSA also stated that based on its employees’ input after the attempted
contact, the system automatically clears the diary.

The Agency’s comments are included in Appendix C.

OIG RESPONSE
SSA’s conclusion that reviewing these cases would require extensive development and would
have little return-on-investment is premature. After SSA completes its review of the 87 sample
cases, it should determine, as we recommended, whether it can develop a cost-effective method
of reviewing the larger population of recipients. For example, SSA may want to contact
recipients who are only in current pay and, as such, should be easy to locate and resolve. Of the
87 recipients in our sample, 40 were in current pay.

SSA’s statement that its policy does not require that its employees document its contact with
recipients or representative payees is not accurate. SSA’s policy states that SSA employees will
update the SSR, pay the underpayment, adjust an existing overpayment, etc. For example, if
recipients indicate they did not cash a check, SSA employees are instructed to place the
following message on the SSR “Limited Payability Case MM/DD/YYYY” reissue the check and
send a notice to the recipient. In addition, if SSA employees cannot locate recipients, they are
required to update the SSR accordingly. None of the 87 recipients’ SSRs had a message
concerning the resolution of the uncashed checks, indicated that SSA employees reissued the
uncashed checks, properly used the underpayments to reduce overpayments, or stated that
recipients could not be located. Finally, there was no evidence that SSA employees sent the
required notices to inform recipients of its decision made concerning their uncashed checks.
Since SSA employees had not documented any of these actions, we concluded the diaries were
improperly cleared.




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                        6
                                      APPENDICES




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)
Appendix A – SCOPE AND METHODOLOGY
From the Social Security Administration’s (SSA) Supplemental Security Record (SSR), we
obtained a data extract of 74,416 Supplemental Security Income (SSI) recipients. These
recipients had 117,213 uncashed checks over $50 issued from January 2000 through
January 2009 that SSA had not reissued as of April 2010. From this population, we randomly
selected a sample of 100 recipients for review.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act and SSA’s Program Operations
    Manual System;
   interviewed SSA personnel from the Offices of Operations and Applications and
    Supplemental Security Income Systems;
   reviewed queries from SSA’s SSR, Online Retrieval System, Modernized Supplemental
    Security Income Claim System, SSI Diary Control program, Representative Payee System,
    and Claims File Records Management System for each sample item as needed; and
   obtained and reviewed electronic folders, including the Department of the Treasury Check
    Information System, when necessary, to determine actions taken by SSI recipients and SSA.

We determined the computer-processed data from the SSR were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit objectives.

We conducted audit work in Richmond, California, between April and December 2013. The
entities audited were the Office of Operations under the Office of the Deputy Commissioner for
Operations and the Office of Systems under the Office of the Deputy Commissioner for Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                     A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained a data extract from the Social Security Administration’s (SSA) Supplemental
Security Record (SSR) of 74,416 Supplemental Security Income (SSI) recipients. These
recipients had 117,213 uncashed checks over $50 issued from January 2000 through
January 2009 that SSA had not reissued as of April 2010. We selected a random sample of
100 recipients to determine whether SSA took appropriate action when recipients had not cashed
their SSI checks within 1 year.

We found that SSA did not take appropriate action to resolve and reissue uncashed checks
totaling $41,256 for 58 of the 100 recipients in our sample. Projecting these results to our
population of 74,416 recipients, we estimate that SSA did not take appropriate action to resolve
and reissue $30.7 million in uncashed SSI checks to 43,161 recipients. In addition, for 29 of the
100 recipients in our sample, we found that SSA employees did not take corrective action to
remove $14,895 in overpayments when the Department of the Treasury informed them the
recipients had not cashed the checks. Projecting these results to our population, we estimate that
SSA should have removed $11.1 million in overpayments for uncashed checks issued to
21,581 recipients.

The following tables provide the details of our sample results and statistical projections.

                                Table B-1: Population and Sample Size
 Description                                                             Number of Recipients
 Population Size                                                                  74,416
 Sample Size                                                                         100

                        Table B-2: Uncashed Checks Payable to Recipients
                                                                  Number of
                        Description                               Recipients     Payment Amount
 Sample Results                                                            58           $41,256
 Point Estimate                                                        43,161       $30,701,578
 Projection - Lower Limit                                              36,680       $21,343,554
 Projection - Upper Limit                                              49,372       $40,059,603

                           Table B-3: Overpayments for Uncashed Checks
                                                                  Number of
                        Description                               Recipients      Overpayments
 Sample Results                                                            29           $14,895
 Point Estimate                                                        21,581      $11,084,434
 Projection - Lower Limit                                              16,069        $7,021,014
 Projection - Upper Limit                                              27,807      $15,147,855
Note:   All projections are at the 90-percent confidence level.


SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                    B-1
           Appendix C – AGENCY COMMENTS




                                             Social Security
MEMORANDUM


Date:      March 24, 2014                                                                 Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Kissko     /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income Recipients Who
           Had Not Cashed Their Checks Within 1 Year” (A-09-13-23023)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WHO HAD NOT CASHED
THEIR CHECKS WITHIN 1 YEAR” (A-09-13-23023)


General Comment

We are concerned about the timeliness of the data the Office of the Inspector General (OIG) used
for this review. OIG reviewed uncashed checks issued from January 2000 through January 2009
and not reissued as of April 2010. Review of these 5 to 14-year old cases would require
extensive development and would have little return on investment. Moving forward, uncashed
checks would now be a rare occurrence as we enforce the regulation requiring direct deposit.

We are also concerned that OIG based its findings and recommendations on a lack of evidence
that we contacted the recipient of the uncashed check or their representative payee. It reported
that we improperly cleared diary alerts that remind employees to resolve the issue. However, our
policy does not require documentation of contact in these cases; nor does policy instruct
employees to clear diary alerts manually.

Recommendation 1

Take corrective action to resolve and, if appropriate, reissue payments to the 87 recipients we
identified.

Response

We agree. We plan to review these 87 cases and take appropriate action by June 2014.

Recommendation 2

Evaluate the results of its corrective action for the 87 recipients and determine whether it should
develop a cost-effective method to address the remaining population of 74,316 recipients with
uncashed checks.

Response

We agree. We will evaluate the results of our case reviews from recommendation 1 to determine
if we should take further action on the additional cases.

Recommendation 3

Determine whether it should revise the SSI Diary Control program to track recipients who have
uncashed checks on terminated SSI records.




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                      C-2
Response

We agree. We will evaluate our policy on limited payability credits to determine whether we
should revise the SSI Diary Control program to identify uncashed checks on terminated records.
We will complete this determination in fiscal year 2014.

Recommendation 4

Remind employees of the policy to resolve uncashed checks before they clear pending diaries.

Response

We disagree. Our technicians follow our policy to resolve uncashed checks. Based on the
technician’s input after the contact attempt, the system automatically clears the diary. The
technician does not manually clear the diary.




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)                   C-3
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

James Sippel, Senior Auditor

Wilfred Wong, Audit Data Specialist




SSI Recipients Who Had Not Cashed Their Checks Within 1 Year (A-09-13-23023)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
